No. 20-999
IN THE SUPREME COURT OF THE UNITED STATES
LLOYD INDUSTRIES, INC.,
Petitioner,
v.
RONALD WATSON,
Respondent.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I hereby certify that Respondent’s
Brief in Opposition in the above-captioned case contains 4,743 words, excluding the
parts of the document that are exempted by Supreme Court Rule 33.1(d).
Executed March 26, 2021.

Adina H. Rosenbaum
Public Citizen Litigation Group
1600 20th St. NW
Washington, DC 20009
(202) 588-1000
arosenbaum@citizen.org
Counsel for Respondent

